OIG Audit Report GR-40-08-005

Office of Justice Programs National Institute of Justice DNA Backlog Reduction Cooperative Agreements Awarded to the Georgia Bureau of Investigation, Decatur, Georgia

Audit Report GR-40-08-005


September 2008
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an audit of the U.S. Department of Justice, Office of Justice Programs (OJP), National Institute of Justice (NIJ) Convicted Offender and Arrestee DNA Backlog Reduction Program cooperative agreements numbered 2005-DN-BX-K044, 2006-DN-BX-K248, and 2007-DN-BX-K012 awarded to the Georgia Bureau of Investigation (GBI).1  The purpose of the program was to help states reduce backlogs of analysis on convicted offender and arrestee DNA samples. The reduction was to be achieved through in-house analysis and data review of the DNA profiles generated by fee-for–service vendors from DNA database samples.2 
 Since 1984, OJP has provided federal leadership in developing the nation's capacity to prevent and control crime, improve the criminal and juvenile justice systems, increase knowledge about crime and related issues, and assist crime victims. The National Institute of Justice (NIJ), a component of OJP, is the research, development, and evaluation agency of the U.S. Department of Justice and is dedicated to researching crime control and justice issues.  NIJ provides objective, independent, evidence-based knowledge and tools to meet the challenges of crime and justice issues, particularly at the State and local levels. 
 The GBI is located in Decatur, Georgia, a suburb of Atlanta.  The GBI’s Division of Forensic Sciences operates eight laboratories located throughout the state. The GBI’s Division of Forensic Science has a total of 13 scientists trained to perform DNA analysis. Two scientists are assigned to the handling and analysis of convicted offender and arrestee DNA samples. The two scientists are assisted by one technician and two temporary clerical staff. Convicted offender and arrestee DNA analysis is performed in only two laboratories, the Headquarters facility in Decatur and the Coastal Regional Laboratory in Savannah. 
The GBI’s primary objective for the three cooperative agreements under review was to purchase supplies so that the backlog of unanalyzed convicted offender and arrestee samples could be reduced.
 The purpose of this audit was to determine whether reimbursements claimed for costs under the agreements were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the agreements, and to determine program performance and accomplishments. The objective of our audit was to review performance in the following areas: (1) internal control environment; (2) drawdowns; (3) cooperative agreements expenditures, including personnel and indirect costs; (4) budget management and control; (5) matching funds; (6) property management; (7) program income; (8) financial status and progress reports;(9) cooperative agreements requirements; (10) program performance and accomplishments; and (11) monitoring of subgrantee agreements and contractors. We determined that personnel costs, indirect costs, matching, program income, and subgrantee agreements were not applicable to these cooperative agreements. As shown in the following table, the GBI was awarded $1,097,400 to purchase supplies for its laboratories to perform analysis of convicted offender and arrestee DNA samples.
 COOPERATIVE AGREEMENTS AWARDED TO THE 
GEORGIA BUREAU OF INVESTIGATION 


 AWARD NUMBER 
 AWARD DATE 
 AWARD AMOUNT 
 AWARD END DATE 


 2005-DN-BX-K044 
 9/19/2005 
 $200,000 
 9/30/2006 


 2006-DA-BX-K248 
 9/01/2006 
 $294,000 
 9/30/2007 


 2007-DN-BX-K012 
 8/15/2007 
 $603,400 
 9/30/2008 


 
 Total 
 $1,097,400 
 


Source: Office of Justice Programs
 We examined the GBI’s accounting records, financial status and progress reports, and operating policies and procedures. We found that the GBI generally complied with program requirements. However, we noted that the GBI’s general ledger accounting system allows only a limited number of invoice numbers to be entered into the data field for such numbers. Consequently, when multiple invoices are paid with a single check to a vendor, the accounting system does not provide sufficient space in the data field to enter all invoice numbers paid by that single check.  This makes it difficult to trace payments from all individual invoices to the general ledger. Therefore, it is possible invoices could be overpaid. According to the GBI budget analyst, accounting department employees reconcile amounts to the general ledger by purchase order number and individual invoice, allowing the GBI accounting department employees to catch any errors before a check is issued to a vendor. While we did not detect any overpayments, undetected overpayments could occur if all invoice numbers are not recorded in the accounting system where the individual amounts can be reconciled to the general ledger.
Our results are discussed in detail in the Findings and Recommendation section of the report. Our audit objectives, scope, and methodology are discussed in the Appendix.



Footnotes

DNA, deoxyribonucleic acid, is genetic material found in almost all living cells that contains encoded information necessary for building and maintaining life. Approximately 99.9 percent of human DNA is the same for all people. The differences found in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification characteristics (a DNA profile) for an individual by analyzing a specimen that contains DNA.
The NIJ awarded cooperative agreements instead of grants for these awards. Cooperative agreements are used when substantial collaboration is anticipated between the grantor and the grantee. Cooperative agreements are subject to the same rules as grants, and we will use variations of “cooperative agreement” and “grant” interchangeably throughout this report.








Return to OIG Home Page